                TIRNO-95-D-00066 and TIRNO-00-D-00020,
                   Incurred Costs Audit for Fiscal Year
                          Ended June 30, 2002

                                   May 2004

                     Reference Number: 2004-1C-101




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            May 20, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               TIRNO-95-D-00066 and TIRNO-00-D-00020, Incurred Costs
                              Audit for Fiscal Year Ended June 30, 2002
                              (Audit #20041C0227)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s May 9, 2003,
       certified final indirect cost rate proposal and related books and records for
       reimbursement of Fiscal Year 2002 incurred costs. The purpose of the examination
       was to determine the allowability of direct and indirect costs and to establish audit
       determined indirect cost rates for July 1, 2001, through June 30, 2002. The proposed
       rates apply primarily to flexibly priced contracts.
       The DCAA made an adjustment of the contractor’s claimed overhead pools to transfer
       $15,020 of indirect labor expenses from cost center (CC) 10 to CC 69 and $7,426 of
       expenses from CC 70 to the contractor’s Technical Services Center. The DCAA also
       recommended a $1,334,979 upward adjustment to the material handling allocation base
       for year-end accruals. Additionally, the DCAA questioned $27,182 of general and
       administrative expenses due to unallowable legal expenses and Board of Directors
       allocations that should have been reported as home office expenses and allocated to all
       benefiting segments.
       The DCAA stated that the contractor’s proposed indirect rates are acceptable as
       adjusted by their examination. The DCAA believes that indirect costs questioned are
       subject to the penalties provided in the Federal Acquisition Regulation (FAR) Part 42.
                                           2




Additionally, the DCAA stated that claimed direct costs, except for unresolved
subcontract costs, are acceptable as adjusted by their examination. The DCAA
determined that the contractor’s hardship travel pay policy is unreasonable and,
therefore, unallowable under FAR Part 31. The DCAA questioned $12,196 of hardship
travel pay expenses charged directly to government contracts. Of this expense, $3,069
was charged to an IRS contract. Direct costs not questioned are provisionally accepted
pending final acceptance.
The DCAA considers subcontract costs for which they have not yet received assist audit
reports to be unresolved. Therefore, the DCAA qualified the results of the audit to the
extent that subcontract costs may be questioned as a result of the assist audits.
The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
